    U.S. Department of the Interior
    Office of Inspector General




                AUDIT REPORT

           SCHOOL BUS OPERATIONS,
         DEPARTMENT OF PUBLIC WORKS,
            GOVERNMENT OF GUAM

                 REPORT NO. 97-I-1294
                   SEPTEMBER 1997




i
                                                                       N-IN-GUA-012-96
             United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                   Washington, D.C. 20240

                                                               SEP 30 1997


The Honorable Carl T.C. Gutierrez
Governor of Guam
Office of the Governor
Agana, Guam 96910

Subject: Audit Report on School Bus Operations, Department of Public Works,
         Government of Guam (No. 97-I-1294)

Dear Governor Gutierrez:

This report presents the results of our review of school bus operations at the Department
of Public Works during fiscal years 1994, 1995 T and 1996. The objective of our audit was
to determine whether the Bus Operations Division, Department of Public Works: (1) used
its personnel and buses efficiently and effectively in providing transportation for the
students of Guam and (2) efficiently assessed and collected fees for private school bus
charters.

Based on our review, we concluded that the Division used its buses effectively in
providing transportation to the students of Guam. However, we found that the Bus
Operations Division: (1) did not adequately control overtime and other personnel costs;
(2) expended bus charter revenues without an appropriation from the Guam Legislature;
(3) did not adequately control bus charter fee billings and collections; and (4) did not
establish school bus charter rates sufficient to recover the costs of providing bus charter
services. These conditions occurred because the Division had not established alternative
work schedules, such as split shifts and/or part-time employment, to reduce overtime and
personnel costs. In addition, the Division was not aware that an appropriation was needed
before bus charter revenues could be spent and had not developed written procedures for
controlling bus charter fee billings and collections and for establishing bus charter rates.
As a result of these deficiencies, the Division incurred unnecessary overtime costs of about
$2.8 million during fiscal years 1994, 1995, and 1996 and incurred other unnecessary
personnel costs of $132,368 during two pay periods we reviewed in fiscal year 1996. In
addition, the Division: (1) improperly spent bus charter revenues of $187,519; (2) had
little assurance that all bus charter fees were eventually billed and collected; and (3) had
bus charter costs that exceeded collections by at least $490,000.

To correct these conditions, we recommended that you, as Governor of Guam, require the
Director, Department of Public Works, to: (1) perform an operational study of the Bus
Operations Division to identify methods, such as the use of split shifts and part-time bus
drivers, to minimize overtime and personnel costs; (2) discontinue the practice of
spending bus charter revenues without an appropriation; (3) develop and implement written
procedures to ensure that adequate controls are established over bus charter billings and
collections; (4) develop and implement written procedures to require the Bus Operations
Division to perform annual analyses of all school bus operational costs to serve as a basis
for establishing new bus charter rates; and (5) use the newly established bus charter rates
when billing customers for bus charter services.

During the audit we also noted that your “Vision 2001” statement addressed the issue of
public transportation systems on Guam. In that regard, the Director of Policy,
Development and Operations and the Director of the Guam Mass Transit Authority told
us that your administration was considering a strategy which would consolidate Guam’s
six public transportation systems. Because of the deficiencies we identified during the
audit, we believe that this strategy will provide for a more efficient public transportation
system on Guam. Therefore, we believe that you should consider studying operational
alternatives for school bus operations, such as merging these operations with those of the
Guam Mass Transit Authority.

On August 18, 1997, we transmitted a draft of this report to you requesting your
comments by September 12, 1997. However, a response to the draft report has not been
provided. Therefore, since this final report is being issued without the benefit of your
response, all of the recommendations are considered to be unresolved (see Appendix 4).

The Inspector General Act, Public Law 95-452, Section 5(a)(3), as amended, requires
semiannual reporting to the U.S. Congress on all audit reports issued, the monetary impact
of audit findings (Appendix l), actions taken to implement audit recommendations, and
identification of each significant recommendation on which corrective action has not been
taken.

In view of the above, please provide a response, as required by Public Law 97-357, to this
report by October 3 1, 1997. A copy of your response should be addressed to our North
Pacific Region, 238 Archbishop F.C. Flores Street, Suite 807, Pacific News Building,
Agana, Guam 96910. The response should provide the information requested in
Appendix 4.

We appreciate the assistance of Bus Operations staff during the conduct of our audit.

                                                                 Sincerely,

                                                        /’ ,A’
                                                // ’ ,’
                                               ( ----- -
                                                                 Inspector General

cc: Acting Director, Bureau of Budget and Management Research
    Director, Department of Public Works
                                        CONTENTS



                                                                                             Page

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1

      BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      1
      OBJECTIVE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       1
      PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          2

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . 3

      A. PERSONNEL EXPENDITURES . . . . . . . . . . . . . . . . . . . . . . . .               3
      B. BUS CHARTER REVENUES . . . . . . . . . . . . . . . . . . . . . . . . . .             6

OTHER MATTERS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    10

APPENDICES

       1. CLASSIFICATION OF MONETARY AMOUNTS . . . . . . . . . . . . 11
       2. SUMMARY OF FUNDING, EXPENDITURES, FUNDS
           TO BE PUT TO BETTER USE, AND LOST REVENUES FOR
           FISCAL YEARS 1994, 1995, AND 1996 . . . . . . . . . . . . . . . . . . 12
       3. SUMMARY OF WORK ASSIGNED TO SCHOOL BUS DRIVERS FOR
           THE BIWEEKLY PAY PERIOD ENDING AUGUST 3, 1996 . . . . . 13
       4. STATUS OF AUDIT REPORT RECOMMENDATIONS . . . . . . . . 14
                                    INTRODUCTION

BACKGROUND

The Department of Public Works was established in 1952 by Title VI, Chapter II,
Section 5104, of the Government Code of Guam. In accordance with the Code, the
Director of the Department of Public Works is appointed by the Governor of Guam and
confirmed by the Guam Legislature and is responsible for managing Public Works
operations and administrative activities. The Department of Public Works has seven
divisions: Administrative Services, Building Maintenance, Capital Improvement Projects,
Highway, Solid Waste Management, Transportation Maintenance, and Bus Operations.

In 1996, the Bus Operations Division was responsible for transporting about 38,000
students to and from public and private schools, and the Transportation Maintenance
Division was responsible for maintaining 188 school buses that operate from eight
substations islandwide. In addition to transporting the students, the school buses were
used for private charters to transport people to and from school functions and community
activities, such as civic and nonschool sporting events. The Bus Operations Division’s
bus charter rates were $21 per hour for nonschool-related activities occurring during
school hours and $30 per hour for all activities occurring after school hours.

The Bus Operations Division’s appropriations for fiscal years 1994, 1995, and 1996 were
about $9.0 million, $9.9 million, and $8.1 million, respectively (see Appendix 2). The
Division’s operating expenditures, including encumbrances, ’ for fiscal years 1994, 1995,
and 1996, were about $8.9 million, $9.5 million, and $7.6 million, respectively (see
Appendix 2). According to Division records, bus charter fee collections for fiscal years
1994, 1995, and 1996 totaled $122,293, $201,406, and $214,238, respectively (see
Appendix 2). During fiscal year 1996, the Division had 194 full-time employees ( 177 bus
drivers and 17 administrative and supervisory personnel).

OBJECTIVE AND SCOPE

The audit objective was to determine whether the Department of Public Works Bus
Operations Division: (1) used its personnel and buses efficiently and effectively in
providing transportation for the students of Guam and (2) efficiently assessed and collected
fees for private school bus charters. The scope of the audit included a review of the
Division’s operations and activities that occurred during fiscal years 1994, 1995, and
1996.

Our audit was conducted at the Division’s offices from July 1996 to February 1997. In
addition, we obtained information relating to school bus operations from Government of



contracts for goods and services.

                                             1
Guam officials at the Governor’s Office, the Department of Administration, the Bureau
of Budget and Management Research, the Civi Service Commission, and the Guam Mass
Transit Authority.

The audit was made, as applicable, in acl ordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered
necessary under the circumstances.

As part of the audit, we evaluated the system of internal controls for the management of
personnel and buses, the establishment of school bus charter rates, the assessment and
collection of bus charter fees, and procurement to the extent that we considered necessary
to accomplish our audit objective. Based on our review, we concluded that the Division
used its buses effectively in providing transportation to the students of Guam. However,
significant internal control weaknesses were identified in the areas of personnel
expenditures and the collection and use of bus charter revenues. These weaknesses are
discussed in the Findings and Recommendations section of this report.                 Our
recommendations, if implemented, should improve the internal controls in these areas.

PRIOR AUDIT COVERAGE

During the past 5 years, neither the General Accounting Office nor the Office of Inspector
General had audited the operations and activities of the Bus Operations Division,
Department of Public Works. However, an independent public accounting firm issued
single audit reports on the Government of Guam for fiscal years 1993, 1994, and 1995,
which did not report any deficiencies or questioned costs related to school bus operations.
               FINDINGS AND RECOMMENDATIONS

A. PERSONNEL EXPENDITURES

The Bus Operations Division did not establish work schedules that would minimize the
amount of overtime paid to school bus drivers or adequately control personnel costs.
Executive Order No. 87-02 requires all agencies to develop work schedules to minimize
the amount of overtime and night differential payments made to Government of Guam
employees. In addition, the Guam Code Annotated requires officers of the Executive
Branch to manage public funds in a responsible manner. However, the Division had not
established an alternative work schedule, such as split shifts and/or part-time employment,
to reduce the amount of bus driver overtime and personnel costs. As a result, the Division
incurred unnecessary overtime costs of about $2.8 million during fiscal years 1994, 1995,
and 1996 and incurred other unnecessary personnel costs of $132,368 during two pay
periods we reviewed in fiscal year 1996.

Overtime Costs
Executive Order No. 87-02, issued by the Governor of Guam on January 8, 1987, states
that “all executive agencies shall minimize the scheduling of employees which may result
in accrual of overtime or night differential payment” and that “overtime shall be a
management tool of last resort. ” In addition, Title 5, Guam Code Annotated, Chapter 7,
Section 7 102, states:

      Any officer, agent, contractor, or employee of the Executive Branch of the
      government of Guam who is charged with or assumes responsibility for the
      certification of availability of funds or the spending of money belonging to the
      territory of Guam, including the Governor and Lt. Governor of Guam, stands
      in a fiduciary relationship to the people of Guam in regard to the management
      of public money. Any such officer, agent, contractor, or employee of the
      Executive Branch shall discharge their duties with respect to the management
      of public money solely in the interest of the people of the territory of Guam.
      Any such officer, agent, contractor, or employee shall discharge his duties
      with the care, skill, prudence and diligence under the circumstances then
      prevailing that a prudent person acting in like capacity and familiar with such
      matters would use in the conduct of an enterprise of like character and with
      like aims.

However, based on our review of the Bus Operations Division’s daily time records at all
eight bus substations for the biweekly pay period ending May 11, 1996 (which we believe
was typical for the school year), we determined that 156 of the Division’s 177 bus drivers
were paid overtime. For example, bus drivers usually reported to their assigned bus
substations at about 6 a.m. and returned to the substations at about 8 a.m., after
completing their morning school bus routes. The time records also showed that the
afternoon school bus routes began at about 1:30 p.m. and ended at about 4 p.m. Thus,

                                             3
during the lo-hour period (6 a.m. to 4 p.m.), minus 1 hour for lunch, bus drivers were
paid for an 8-hour day plus a minimum of 1 hour of overtime each school day.

We reviewed expenditure reports maintained by the Department of Administration to
determine the amount of overtime costs incurred by the Division. Based on our review
of expenditure reports for fiscal years 1994, 1995, and 1996, we determined that the
Division incurred overtime costs of $1.2 million, $1 .O million, and $0.9 million,
respectively, for a total of $3.1 million for the 3 fiscal years reviewed. However, the
overtime costs shown on the expenditure reports included overtime that was incurred as
a result of bus charters during nonschool hours. Therefore, we reviewed bus charter
billing documents and estimated that overtime costs for bus charters during fiscal years
1994, 1995, and 1996 were about $112,000, $110,000, and $66,000, respectively, for a
total of about $288,000. Thus, for the 3 fiscal years reviewed, the Division’s overtime
costs, net of estimated bus charter overtime costs, were about $2.8 million.

Other Personnel Costs
In addition to unnecessary overtime hours, bus drivers were inappropriately paid a total
of $132,368 during the regular school year for idle hours and for work that was not
directly related to driving buses as follows:

       - Based on our analysis of daily time reports for 156 school bus drivers during the
pay period ended May 11, 1996, we found that, during the school year, most of the
drivers completed their morning bus routes at about 8:00 a.m. and started their afternoon
bus routes at about 1: 30 p.m. Therefore, after subtracting 1 hour for lunch, the drivers
had about 4.5 hours of idle time each school day. Our analysis of 1,560 daily time reports
for the pay period reviewed disclosed that the drivers were paid about $62,000 for about
5,000 hours of idle time.2

      - Based on a review of daily time reports for 153 school bus drivers during the pay
period ended August 3, 1996 (during the summer vacation period), we found that these
school bus drivers were given various work assignments which, in our opinion, were made
primarily to keep them occupied during the time they were not needed to drive the buses.
For example, they removed vegetation from near school bus shelters, served as security
guards at school bus substations, and warmed up school buses (see Appendix 3). For the
pay period reviewed, the drivers were paid about $70,000 for about 7,000 hours of these
types of work assignments.

We discussed the possibility of using split shifts and/or part-time drivers to reduce
overtime and personnel costs with the Acting Superintendent of the Bus Operations
Division, who stated that he did not want to use these alternative methods because the bus


21n some instances, the daily time records showed that the drivers were assigned to transport students to
attend Head Start Program or Dental Program activities or school field trips between 890 a.m. and
1:30 p.m. Therefore, our estimate of idle time excludes the time that bus drivers were assigned to transport
students to these activities.

                                                     4
drivers were needed in case the schools had to close early because of an emergency.
Further, the Acting Superintendent said that the Division’s bus drivers needed to be full-
time employees in order for them to be paid “adequate wages. ”

We disagree with the Acting Superintendent’s rationale for not using split shifts and/or
part-time drivers to reduce overtime and personnel costs. In our opinion, the costs
associated with having full-time bus drivers available only to respond to emergencies is
not an effective use of the Division’s resources. In addition, if the Division employed bus
drivers on a split shift and/or part-time basis, we believe that the Division would have
sufficient lead time to contact and dispatch bus drivers to transport students to their homes
when an emergency, such as an approaching typhoon, occurs. Regarding the amount of
wages paid to bus drivers, we do not believe that bus drivers should be full-time
employees so that they can be provided “adequate wages. ” In that regard, the Department
of Public Works needs to perform a study of the Division’s operations to identify methods
to minimize overtime and personnel costs. In addition, the Department may wish to
consider developing a contingency plan to transport students to their homes in those
instances when the schools must close early.

Recommendation

We recommend that the Governor of Guam require the Director, Department of Public
Works, to perform an operational study of the Bus Operations Division so that methods
such as the use of split shifts, part-time bus drivers, or other practical alternatives can be
identified and used to minimize overtime and other personnel costs. Based on the results
of this study, an alternative work schedule should be implemented.

Governor of Guam Response and Office of Inspector General Reply

The Governor of Guam did not provide a response to the draft report. Therefore, the
recommendation is considered unresolved (see Appendix 4).
B. BUS CHARTER REVENUES

The Bus Operations Division spent bus charter revenues without an appropriation, did not
adequately control bus charter revenues, and did not periodically adjust bus charter rates
to ensure that bus charter costs were recovered. These conditions occurred because the
Division: (1) was not aware that, based on the Guam Code Annotated, an appropriation
from the Guam Legislature was needed before bus charter revenues could be
spent; (2) did not have sufficient administrative staff to establish adequate controls over
bus charter fee billings and collections; and (3) had not developed and implemented written
procedures to require periodic studies of bus operations costs to serve as a basis for
determining bus charter rates. As a result, the Division improperly expended bus charter
revenues of $187,5 19 and could not be assured that all bus charter fees were properly
billed, collected, and deposited during fiscal years 1995 and 1996. In addition, we
estimated that the Division’s bus charter costs exceeded collections by at least $490,000
during fiscal years 1994, 1995, and 1996.

Bus Charter Revenue Controls

Before July 3 1, 1995, the Bus Operations Division deposited bus charter collections into
the Government of Guam’s General Fund. However, in a June 8, 1995, memorandum,
the Director of the Department of Public Works requested the Director of the Department
of Administration to establish a revenue account for school bus charter collections. The
request stated:

       The revenue account shall be used to fund expenditures not otherwise
       provided for under the normal appropriations accounts of the Bus Operations
       Division but which shall be restricted to appropriate personnel and operating
       expenditures applicable to the Division’s requirements or directly to the
       activity from which the revenue was generated.

In addition, the request stated, “To initiate the account, a check in the mount of $52,000
is enclosed and to be appropriated as follows: $12,000 for contractual services, $35,000
for supplies and materials, and $5,000 for equipment. ” Accordingly, on July 3 1) 1995 $
the revenue account was established by the Department of Administration. During fiscal
years 1995 (July 31 through September 30, 1995) and 1996, the Division deposited bus

expended $11,754 and $175,765, respectively, from the revenue account (see
Appendix 2).

None of the officials we interviewed at the Division, the Department of Administration,
and the Bureau of Budget and Management Research were aware of any appropriation for


“Bus charter revenues during fiscal year 1995 totaled $201,406. Of this amount, $173,266 was deposited
into the revenue account during the period of July 3 1 through September 30, 1995. The remaining $28,140
was deposited into a Bus Operations Division appropriation account.

                                                   6
bus charter revenues. Further, based on our review of the appropriations laws for fiscal
years 1995 and 1996, we found no evidence in the appropriations that the Division was
authorized to expend bus charter revenues. In our opinion, the Division’s use of bus
charter revenues violated Title 5, Guam Code Annotated, Section 22401(a), “Illegal
Expenditures, ” which states:

      No officer or employee of the Government of Guam, including the Governor
      of Guam, shall: . . . (2) Commence, continue, or proceed with any operational
      activity, construction, improvement, contract, or obligation without an
      appropriation or fund for the payment thereof; or after any such appropriation
      or fund is exhausted.

In addition, Section 22401(a)(6)(1) defines “appropriation” as “the funds allocated by the
Legislature which directs how the amount, manner and purpose of the funds are to be
used. ” Finally, Section 22401(c) states that if the individuals cited in the section spend
money without an appropriation, they will be “subjected to appropriate disciplinary
action . . . including removal . . .” and “be guilty of a misdemeanor. ” Consequently, the
Division should discontinue the practice of spending bus charter revenues without an
appropriation from the Guam Legislature.

During our audit, we also noted that improvements were needed in the Division’s controls
over bus charter billings and collections. Specifically, the Division did not maintain
adequate separation of duties between the bus charter billing and collection functions; did
not establish and maintain a receivable account for bus charter billings; and did not
reconcile bus charter billings, collections, and deposits with the official accounting records
maintained by the Department of Administration. The Division Acting Superintendent
stated that these controls deficiencies occurred because he did not have sufficient
administrative staff to implement the controls.

We believe that the Division needs to develop and implement written procedures to ensure
that all bus charter fees are billed, collected, and deposited and that bus charter revenues
are safeguarded from misappropriation. In addition, these procedures should address:
(1) establishing and maintaining adequate separation of duties between personnel
responsible for issuing bus charter bills and personnel responsible for collecting bus
charter fees; (2) establishing and using a receivable account to ensure that bus charter
customers are billed; and (3) reconciling, on a periodic basis, bus charter billings,
collections, and deposits with the Department of Administration’s accounting records to
ensure that bus charter revenues are adequately protected. In addition, if sufficient staff
are not available within the Bus Operations Division, the Acting Superintendent should
consider requesting that the Director of the Department of Public Works transfer the
billing, collecting, depositing, and reconciling functions to the Fiscal and Supply Section
of the Department’s Administrative Services Division.
Bus Charter Rates

Executive Order 87-39, issued by the Governor of Guam on December 28, 1987,
authorizes the Department of Public Works to provide transportation to various groups
when public or commercial transportation is not available, provided that the Government
is reimbursed “at a rate comparable to prevailing commercial rates for bus rental. ”

We found, in the Administrative Officer’s files, a Department of Administration analysis
that was prepared in 1994 to support the bus charter rates of $21 for school hours and $30
for nonschool hours. However, we determined that the analysis did not include all Bus
Operations Division labor costs, any bus fuel costs, applicable Transportation Maintenance
Division labor costs, and an allocated portion of the Departmental overhead costs.4
Although we attempted to determine these expenditure amounts, expenditure data either
were incomplete or were not readily available. Therefore, we were unable to determine
all of the exact costs associated with operating the school buses. However, based on the
expenditure data that we did obtain, we estimated that the hourly bus charter rates for
fiscal years 1994, 1995, and 1996 should have been at least $53, $49, and $48,
respectively, for charters during school hours and $59, $56, and $55, respectively, for
charters after school hours. Based on our analysis of bus charter rates, we estimated that
the Division’s costs exceeded bus charter collections by at least $210,000, $170,000, and
$110,000, for fiscal years 1994, 1995, and 1996, respectively, for a total of $490,000.

Recommendations

We recommend that the Governor of Guam require the Director, Department of Public
Works, to:

      1     Discontinue the practice of spending bus charter revenues without an
appropriation from the Guam Legislature.

       2. Develop and implement written procedures to ensure that adequate separation of
duties is maintained between the personnel responsible for issuing bus charter fee bills and
the personnel responsible for collecting bus charter fees.

       3. Develop and implement written procedures to ensure that a receivable account
is established and used for bus charter billings and that bus charter billings, collections,
and deposits are reconciled on a periodic basis with the Department of Administration’s
accounting records.

      4. Ensure that there is sufficient administrative staff to implement the Division’s
controls over bus charter billings and collections.


4The Bureau of Budget and Management Research, Government of Guam, said that the Department’s
overhead costs for fiscal year 1994 totaled $1.9 million. However, the actual overhead costs for fiscal years
1995 and 1996 were not available during the audit.

                                                     8
      5. Develop and implement written procedures that require the Bus Operations
Division to perform annual analyses of all school bus operational costs, including overhead
and maintenance costs, to serve as a basis for establishing new bus charter rates. When
completed, the Division should use the newly established bus charter rates when billing
customers for bus charter services.

Governor of Guam Response and Office of Inspector General Reply

The Governor of Guam did not provide a response to the draft report. Therefore, the
recommendations are considered unresolved (see Appendix 4).




                                             9
                                   OTHER MATTERS
In 1995, the Governor of Guam prepared a “Vision 2001” statement, which stated:

       Many of the systems currently in place to manage our resources and delivery
       systems are antiquated and not properly organized. . . . [W]e have a separate
       transportation system for the elderly, a separate system for the general public,
       a separate system for persons with disabilities, a separate system for school
       children, a separate system for school children with disabilities, and a huge
       network of cars, trucks, vans, and heavy vehicles parceled out to the over 50
       agencies that make up GovGuam. . . . This is no way to run a railroad or a
       transportation system and this, too, has to change.

The Director of Policy, Development and Operations, Offke of the Governor, in
commenting on the Governor’s strategy for implementing Vision 2001 issues relating to
public transportation, said that the public transit systems should be consolidated. However,
the Director stated that before any action to consolidate the public transit systems could be
taken, issues such as sources of capital funding, impact on Government employees, and
proper drafting and monitoring of any contracts awarded to firms supporting transportation
services should be addressed. Also, the Guam Mass Transit Authority’s Director, at a Guam
Legislature oversight hearing in June 1996, presented the Transit Authority’s short- and
long-term goals for a public transportation system in Guam, which included: (1) the
consolidation of public and paratransit operations and maintenance functions; (2) plans for
and development of a consolidated transportation system; and (3) eventual consolidation
                                                The Director said that he estimated that by
consolidating the six separate public transportation systems, annual savings of $9 million
would be realized by making better use of some bus drivers who are working only about 4
hours and getting paid for 9 hours each day. In addition, the Director stated that the savings
would occur through more efficient use of administrative, dispatcher, and mechanic
personnel and through the elimination of duplicate personnel services. Finally, the Director
said that, although problems with consolidation., such as government drivers losing their jobs,
would occur, he believed that these problems could be resolved by requiring contractors to
offer employment to government drivers.

Because of the inefficiencies we identified during our audit, we agree with the consolidated
transportation system concept proposed by the Governor and the Transit Authority’s
Director. Therefore, in order to contain personnel costs and provide for a more efficient
public transportation system, we believe that the Governor should consider initiating a plan
to implement operational alternatives for school bus operations, such as merging operations
with the Guam Mass Transit Authority.




‘The six public transportation systems are of the Guam Mass Transit Authority, the Department of Public
Works School Bus Operations, SPIMA (“Servicio Para I Man-Amko, ” which is “transportation services for
the elderly”), the Department of Education’s Special Education, and Guma Mami and Paratransit (both
provide transportation services for handicapped individuals).

                                                  10
                                                           APPENDIX 1


               CLASSIFICATION OF MONETARY AMOUNTS


                                  Funds To Be Put
        Finding Areas              To Better Use*   Lost Revenues*

 A. Personnel Expenditures
   Overtime Costs                   $2,774,147
   Personnel Costs                     132,368

 B. Bus Charter Revenues
   Bus Charter Revenue
       Controls                        187,519
   Bus Charter Rates                                 $490,000

   Totals                           $3.094.034       $490.000**




*Amounts represent local funds.

**See Appendix 2.




                                        11
                                                                                                     APPENDIX 2


                  SUMMARY OF FUNDING, EXPENDITURES, FUNDS
               TO BE PUT TO BETTER USE, AND LOST REVENUES FOR
                       FISCAL YEARS 1994,1995, AND 1996


                                                  Total                Total        Total        Funds To Be
                               Total          Expenditures/        Expenditures   Revenues         Put To           Lost
   Funding Source             Funding         Encumbrances           Audi ted     Audited        Better Use      Revenues


Fiscal Year 1994
Local Funding:
Appropriations                $9,03 1,702       $8,873,393          $8,472,9 15                 $1,079,384
Bus Charter Revenues*            122,293                  0                       $122,293                       $210,000
Subtotals - FY94             $9>153,995         $8,873,393          1$8,472,9 5   $122,293      $1,079,384       $210,000

Fiscal Year 1995
Local Funding:
Appropriations                $9,874,074        $9,470,3 90          $7,862,725                   $904,553
Bus Charter Revenues*            201,406             11,754              11,316   $201,406         11,754        $170,000
Subtotals - FY95             $10,075,480        $9,482,144          1$7,874,04    $201,406       $916,307        $170,000

Fiscal Year 1996
Local Funding
Appropriations                $8,125,679        $7,557,362          $7,00 1,280                  $922,578
Bus Charter Revenues             214,238           175,765               11,697   $214,238         175,765       $110,000
Subtotals - FY96              $8,339,917        $7,733,127          $7,012>977    $214,238     $1,098,343        $110,000

Grand Totals                 $27,569,3 92     $26>088,664          $23,359,933    $537,937      $3>094,034       $490,000




*The total funding amounts for bus charter revenues are based on the total deposits shown in the official accounting records
maintained by the Department of Administration. In addition, bus charter fee collections for the period of October 1, 1993,
through July 30, 1995, were in addition to appropriations and were deposited into a General Fund account. Because these
revenues were cornmingled in the General Fund, we were unable to identify through the official accounting records the total
expenditures made during this period.




                                                              12
                                                                                                       APPENDIX 3


    SUMMARY OF WORK ASSIGNED TO SCHOOL BUS DRIVERS
    FOR THE BIWEEKLY PAY PERIOD ENDING AUGUST 3,1996


                                      Non-Job-Related              Job-Related
                                        Work Days                  Work Days                Total
     Work Assignment                     Charged                     Charged             Davs Charged

Unidentified                                  235                                              235

 Security at Bus
 Substations                                  213 *                                            213

 Shelter Maintenance                          loo**                                             100

Warming Up Buses                                92***                                            92

 School Field Trips                             20***                    127                    147

 Stand By****                                   13                                               13

 Driving Buses                                                           186                    193

 Cleaning
 Buses/Substations                                                         16                     16

 Training                                                                    9                     9

 Assigned to Central Office                                                  2                     2

     Totals                                   680                        340                 1,020




*Drivers provided security at three substations for 24 hours each day, 7 days per week. (Note: The Bus Operations
Division did not provide any security for the substations during the school year.)

**Drivers removed vegetation around bus shelters and cleaned bus shelters.

***Division officials were unable to provide documentation to adequately support these work assignments.

****This work assignment designation was used only during the summer and only by drivers at two of the eight bus
substations. According to the Acting Superintendent, the drivers who warmed up buses assisted other drivers, if needed,
for field trips.




                                                          13
                                                                              APPENDIX 4


       STATUS OF AUDIT REPORT RECOMMENDATIONS


Finding/Recommendation
       Reference            Status                            Action Rewired

   A. 1 and B.l-B.5      Unresolved.        Provide a response to each
                                            recommendation indicating concurrence or
                                            nonconcurrence. If concurrence is
                                            indicated, provide an action plan that
                                            identifies the target date and the title of the
                                            official responsible for implementation. If
                                            nonconcurrence is indicated, provide
                                            specific reasons for the nonconcurrence.




                                       14
               ILLEGAL OR WASTEFUL ACTIVITIES
                   SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY=


Sending written documents to:                                Calling:


                   Within the Continental United States

U.S. Department of the Interior                        Our 24.hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    l-800-424-508 1 or
Mail Stop 5341                                         (202) 208-5300
Washington, D.C. 20240


                                                       TDD for hearing impaired
                                                       (202) 208-2420 or
                                                       l-800-354-0996


                   Outside the Continental United States


                                  Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                                North Pacific Region

U.S. Department of the Interior                        (700) 55O-7428 or
Office of Inspector General                            C O M M 9-O1l-67l-472-7279
North Pacific Region
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
Toll Free Numbers:
 l-800-424-5081
 TDD l-800-354-0996

FTS/Commerciai Numbers:
 (202) 208-5300
 TDD (202) 208-2420

 HOTLINE
1849 C Street, N.W.
Mail Stop 5341
Washington, D.C. 20240
